WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-231

Aladdin Manufacturing Corporation, et al.

The Water Works and Sewer Board of the Town of Centre, et al
V

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Arrowstar, LLC

El I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date•
(Type or print) Name

Warren N. Coppedge, Jr.
Mr.

Firm

❑ Mrs.

❑ Miss

Coppedge, Michmerhuizen, Rayburn I Attorneys at Law

Address

508 S. Thornton Avenue

City & State
Phone

❑ Ms.

Dalton, Georgia

(706) 226-0040

Zip
Email

30720

trisha@coppedgefirm.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: See enclosed service list

